Via UPS Overnight
October 6, 2020

Scott Harris

Clerk of the United States Supreme Court
1 First Street, NE

Washington, DC 20543

Re: Application for Stay Pending Certiorari (Renewal to Justice Sotomayor)
Pamela M. Timbes v. Deutsche Bank National Trust Company as Indenture Trustee

Dear Mr. Harris:

Enclosed please find ten (10) copies of Application for Stay Pending Certiorari. The
Application for Stay was denied by Justice Thomas on October 5, 2020. Please renew the
Application for Stay to Justice Sotomayor.

Thank you.

Sincerely,

Prise, WA. Gru

Pamela M. Timbes
Petitioner Pro Se

304 Carnoustie

St. Simons Island, GA 31522
ptimbes@gmail.com
912-222-6773

Enclosures
ce Via Email and U.S. Mail:

Dallas R. Ivey

Christopher Reading

3575 Piedmont Road NE

Fifteen Piedmont Center, Suite 500
Atlanta, Georgia 30305

Email: creading@aldrigepite.com

       

OCT =9 2020
SUPREME COUNT ES

       
